No. 19-1306

 

IN THE
Supreme Court of the United States

UNITED STATES SERVICE, INC.,

Petitioner,
Vv.
STATE OF NEW YORK AND CITY OF NEW YORK,
Respondents.

ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE SECOND CIRCUIT

BRIEF IN OPPOSITION

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
8,141 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on August 3, 2020.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
